CERTIFICATE OF COMPLIANCE

No. 21-351

Courtney Wild,
Petitioner,
v.
United States District Court for the Southern District of Florida,
Respondent,

As required by Supreme Court Rule 33.1(h), I certify that the Brief Of Amicus
Curiae CHILD USA in Support of Petitioner contains approximately 4,073 words, excluding
the parts of the Brief Of Amicus Curiae CHILD USA in Support of Petitioner that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 4, 2021.
/s/James R. Marsh
James R. Marsh

